                             Office of the Inspector General



Kenneth S. Apfel
Commissioner of Social Security

Acting Inspector General


Effects of State Awarded Workers’ Compensation Payments on Social Security
Benefits


The attached final report presents the results of our review of Social Security Disability
Insurance (DI) benefits paid to individuals who also receive State workers’
compensation (WC) payments (A-04-96-61013). The objective of our audit was to
review Social Security title II DI benefits for individuals receiving WC payments and the
internal controls established over that process to ensure payment accuracy. The
Social Security Act, section 224, requires that the combined benefit from DI and State
WC be reduced to prevent situations where the disabled could receive more income in
disability benefits than they were earning prior to becoming disabled.

You may wish to comment on any further action taken or contemplated on our
recommendations. If you choose to offer comments, please provide them within the
next 60 days. If you wish to discuss the final report, please call me or have your staff
contact Pamela J. Gardiner, Assistant Inspector General for Audit, at (410) 965-9700.




                                                James G. Huse, Jr.

Attachment
          OFFICE OF
   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



   EFFECTS OF STATE AWARDED
WORKERS’ COMPENSATION PAYMENTS
  ON SOCIAL SECURITY BENEFITS

  September 1998   A-04-96-61013




AUDIT REPORT
                      E X E C U TI V E S U M M AR Y

OBJECTIVE

The objective of this audit was to review Social Security title II Disability Insurance (DI)
benefits paid to individuals who also receive workers’ compensation (WC) payments
and the internal controls established over that process to ensure payment accuracy.

BACKGROUND

The Social Security Administration (SSA) administers the Old-Age, Survivors and
Disability Insurance (OASDI) program under title II of the Social Security Act (Act).
Section 223 of the Act requires SSA to provide monthly Social Security DI benefits to
individuals who are insured for disability insurance and meet specific disability
requirements. Section 224 of the Act requires that the combined benefit from DI and
WC be reduced (offset) so that the combined benefits do not exceed the larger of:
1) 80 percent of the worker’s predisability earnings, or 2) the total family benefits
allowable under Social Security before offset. By enacting the WC offset provision,
Congress intended to prevent situations where disabled workers could receive more in
disability benefits than they were earning prior to becoming disabled. As reported by
the General Accounting Office (GAO),1 Congress was concerned that, if placed in that
situation, a beneficiary might not be motivated to actively seek rehabilitation.

To review title II disability benefits for individuals receiving State WC payments, we
obtained a data extract from SSA that contained all master beneficiary records coded
as having a State WC offset during the period January 1, 1993, through June 30, 1996.
The data extract contained 183,881 cases who received an estimated $6.326 billion in
benefits through October 1997. We did not audit the SSA data base to verify that it
contained all applicable State WC cases.

We reviewed the computation of monthly payments for 50 DI cases. For reporting
purposes, the total effect of computational errors was calculated from the month of
entitlement through October 1997. We performed our work at field offices (FO) in
Atlanta and Tucker, Georgia; the central office in Baltimore, Maryland; and the program
service center (PSC) located in Birmingham, Alabama. Our audit included an
assessment of those internal controls established for the WC offset process. Audit field
work was performed from February 1996 through March 1998.
RESULTS OF REVIEW
ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
1
 “Better Case File Monitoring of the Workers’ Compensation Offset Provision by SSA Could Save
Millions” (GAO/HRD-83-90), September 30, 1983.


                                                 i
From January 1993 through June 1996, 183,881 State WC offset cases received an
estimated $6.326 billion in benefits from their month of entitlement through
October 1997. From a review of cases2, we identified an 82 percent error rate in SSA’s
computation of WC benefits having a potential total dollar error of $526.7 million.

•   COMPUTATION OF TITLE II BENEFITS

Title II benefits were inaccurately computed in compliance with WC offset
requirements. For 41 of 50 cases reviewed, computational and procedural errors
resulted in overpayments totaling $209,451 and underpayments totaling $77,009. For
example, in three cases title II benefits were overpaid because DI claims were not
offset for WC benefits. In other cases, WC information was either not verified at all, or
not verified in a timely manner. The subsequent changes in WC benefits were not
factored into the monthly DI payment. Also, when the beneficiary disclosed a lump sum
settlement,
title II benefits were not always reduced. There were eight cases where SSA adjusted
individual monthly benefits contrary to established procedures in the Program
Operations Manual System (POMS). Changes in total family benefits and cost of living
adjustments were calculated inaccurately. Furthermore, procedures established to
process triennial redeterminations often resulted in underpayment. Finally, the
miscalculation of representative fees also adversely affected monthly benefits.

The computational errors occurred because of a lack of sufficient quality standard
controls and management’s emphasis on processing claims quickly to meet
performance goals and backlogs. FO and PSC personnel lacked training in WC offset
procedures which contributed to the problem. Claims representatives (CR) and claims
authorizers (CA) were provided 3 and 16 hours of training, respectively. The most
significant payment errors occurred because SSA relied on the beneficiaries to report
reliable WC information and subsequent changes in WC benefits. Administrative law
judges (ALJ) often awarded DI benefits on information provided by the claimant months
earlier. As a result, the initial DI payments were calculated based on outdated
information. SSA did not require that the WC information be reconfirmed with the
claimant prior to providing benefits. As a result, title II disability benefits were
inaccurately paid. Projecting the results of the 50 cases reviewed to 100 cases, about
$385.1 million in overpayments and $141.6 million in underpayments may exist in the
Master Beneficiary Record (MBR) for a total dollar error of $526.7 million.



ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
2
  We selected a random sample of 100 cases. Because of the difficulty in obtaining case files and WC
verification, we have based our projections on the errors identified from our review of 50 cases for which
we received folders. When we project, we are using the entire sample of 100 cases assuming that the
remaining 50 cases, which we did not review, are correct. If we reviewed the remaining 50 cases, we
would expect the projections of the errors to increase.


                                                    ii
•   SSA CONTROL OVER THE WC OFFSET PROCESS

SSA has a formal system for processing title II benefits, but our review disclosed that
the process was flawed and oversight controls did not prevent the problems which
caused payment errors nor did the controls correct the problems once discovered. The
diary process did not provide assurance that WC issues were appropriately resolved.
Records management was also a problem because files could not be readily located
and were sometimes incomplete. When internal reviews identified significant
deficiencies in the WC offset process, management did not always take corrective
action. All of these conditions contributed to the high number of sample cases having
payment errors. Finally, potential fraud cases were not referred to the Office of the
Inspector General (OIG).

CONCLUSIONS AND RECOMMENDATIONS

Our audit confirmed the results of prior reports issued by GAO, the Department of
Health and Human Services (HHS)/OIG, and the Office of Program and Integrity
Reviews (OPIR).3 In 1983, GAO reported that insufficient case file monitoring cost SSA
$43.1 million in Fiscal Year (FY) 1981. OPIR reconfirmed GAO’s concerns in a
1985 study. OPIR reported that diaries had not been resolved for 2 years after the date
of adjudication in 86 of the 300 cases it reviewed. The result was an average
overpayment of $1,170 per case. The 1985 study recommended that SSA control diary
alerts until the pending WC offset issues were resolved and management concurred.
In 1991, OPIR reported that the 1985 recommendation was never implemented. In the
1991 follow-up analysis, OPIR emphasized that 6 years after its original
recommendation, the situation had markedly worsened. In a 1997 report OPIR
discussed SSA’s failure to offset or impose offset when issuing the initial benefit
payments. In particular, OPIR was concerned that SSA did not redevelop a case, after
a favorable disability decision, where the original claim was filed months or even years
earlier. As disclosed in our review, these adverse conditions still exist and little has
been done to solve the WC offset problems and to prevent future payment errors.

We recommend that SSA recognize WC offset as a internal control weakness under
the Federal Manager’s Financial Integrity Act (FMFIA) and review cases in our sample
to determine the proper benefit amount and take the required action. In addition, SSA
should: emphasize timely referral of cases to OIG; increase front-end reviews of WC
cases and continue to conduct back-end reviews on the high-risk area of WC offset;
process WC offset cases through a specialized group of WC adjudicators and
reviewers; attempt to identify diaries that may have been lost or not implemented;
redevelop cases, after a favorable disability decision, where the original claim was filed
months or years earlier; reverify, every 3 years, the status of WC especially in cases

ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
3
 On February 13, 1998, the Commissioner of Social Security renamed OPIR, the Office of Quality
Assurance and Performance Assessment.


                                                 iii
where WC was previously removed; consider offsetting at the state maximum in cases
where WC verification is pending; revamp the records management system to better
account for and maintain valuable documentation in support of claims paid; implement
an MBR control to ensure that WC offset actions are taken prior to authorizing benefits;
and, provide more training for adjudicators and reviewers assigned the responsibility of
processing DI claims with WC offsets.

AGENCY COMMENTS

Overall the Agency agreed with or has taken action on 11 of the 13 reported
recommendations. SSA recognized the complexity of WC cases and the fact that WC
cases were prone to error. The Agency raised concerns with our definition of an error,
the definition of overpayments, and the composition of our sample. SSA also rejected
our recommendation to report the WC issue as a material internal control weakness
under FMFIA and did not agree to always offset based on the State maximum.
Irrespective of these concerns, SSA agreed there was a need to improve processing
accuracy in WC cases and continues to explore ways to do so. SSA is pursuing data
matching with the Department of Labor and direct access to State data bases.

SSA also provided a limited number of technical comments that have been considered
and incorporated in this final report. The full text of SSA’s comments is included in
Appendix E.

OIG RESPONSE

We reported errors that resulted from beneficiaries providing incorrect or incomplete
information, and cases where the errors would have subsequently been adjusted by
SSA. SSA would prefer not to report these actions as errors or overpayments. Instead,
SSA maintains that such errors are adjustments and would only affect the timing of the
correct benefit payment.

We disagree with SSA and believe that for management to effectively evaluate the
accuracy and reliability of its WC process, all errors should be disclosed regardless of
whether the DI benefit error was later found and adjusted or caused by the beneficiary.
Based on our analysis, the overall effect of errors in question is more far reaching than
a timing difference. The failure to correctly pay DI benefits results in a loss of program
dollars, a failure to meet the Agency’s commitment to world-class service and fosters
negative public opinion regarding the integrity and reliability of SSA’s payment process.

SSA also contends that the number of appeal cases in our sample was high in
relationship to the mix of all WC cases. We reviewed the relationship of appeal cases




                                            iv
to the 50 cases reviewed and to a 200 case sample that was randomly selected from
the WC population. These relationships appear consistent and do not indicate that the
case mix was aberrant.

The total number and dollar of errors identified during our review is considered
significant when projected to the entire population of WC cases. This fact coupled with
the knowledge that prior audits and reviews demonstrate a long history of problems
relating to WC offset with little or no remedy, should encourage SSA to report the WC
offset as a material internal control weakness under FMFIA. SSA should not base its
reporting of a material weakness only on benefit outlays because this threshold is so
large and would prevent significant program deficiencies from being reported.

Finally, we continue to recommend that SSA redevelop the alleged WC information
prior to initial payments or offset based on the State WC maximum. In particular, this
practice should be followed in appeal cases where applications are submitted months
or years earlier. This would reduce the number of overpayments and the time and
effort the Agency expends collecting DI overpayments.




                                           v
                         TAB L E O F C O N TE N TS

                                                                                                                     Page

EXECUTIVE SUMMARY ......................................................................................... i

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 9

    COMPUTATION OF TITLE II BENEFITS.......................................................... 9

        Timely Verification of WC Payments.......................................................... 10
        Reduction of Title II Disability Benefits for State WC Benefits................... 12
        Subsequent Changes in WC Payments..................................................... 12
        Lump Sum WC Settlements Impact Title II Benefits .................................. 13
        Compliance with POMS ............................................................................. 14
        Timely Triennial Redeterminations Prevent Underpayments..................... 14
        Appointed Representative Fees Impact the Monthly DI Benefit................. 15
        Training Needed to Effectively Implement WC Offset Provisions .............. 16
        Operational Goals Affect WC Cases ........................................................ 16

    SSA CONTROLS OVER THE WC OFFSET PROCESS................................. 17

        Diary Process Intended to Ensure Appropriate Resolution of WC
         Issues......................................................................................................... 18
        Records Location and Maintenance .......................................................... 18
        Supervisory Review of WC Offset Process................................................ 19
        WC Quality Assurance Reviews ................................................................ 19
        Overpayment Recovery ............................................................................. 21
        Refer Potential Fraud to OIG ..................................................................... 21

CONCLUSIONS AND RECOMMENDATIONS..................................................... 23

APPENDICES

APPENDIX A - Attributes Appraisal
APPENDIX B - Variables Appraisal
APPENDIX C - Nonstatistical Appraisal
APPENDIX D - Major Report Contributors
APPENDIX E - SSA Comments
APPENDIX F - SSA Organizational Chart
                                 I N TR O D U C TI O N

OBJECTIVE

The objective of this audit was to review Social Security title II DI benefits paid to
individuals who also receive WC payments and the internal controls established over
that process to ensure payment accuracy.

BACKGROUND

SSA administers the OASDI program under title II of the Act. Section 223(a) of the Act
requires SSA to provide monthly Social Security DI benefits to individuals who are
insured for disability insurance and meet specific disability requirements.

Workers who are injured on the job may qualify for title II DI benefits. As a disabled
worker, in addition to DI benefits, these individuals can also be eligible for benefits
under Federal and State WC programs. This DI and WC overlap may result in a
situation where workers receive more in disability benefit payments than they earned
prior to becoming disabled.

WC Offset

Congress, concerned that those workers experiencing increased earnings under
disability may not be motivated to actively seek rehabilitation, enacted the WC offset
provision under section 224 of the Act. This provision required SSA to offset DI
payments by any other disability benefit paid under any law or plan of the United
States, a State, or political subdivision. This included benefits authorized under the
Longshore and Harbor WC Act, Federal Employees Compensation Act, Federal Mine
Safety and Health Act - Part C, and various State WC programs. In each instance, the
DI benefit is the one reduced,4 unless the other disability payment originates from a
State with a “reverse offset” law.




ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
4
 Total benefit payments, with respect to the worker, will not be reduced below the amount of the
unreduced monthly Social Security benefit (primary insurance amount). Sections 224(a) and
224(d) of the Act.


                                                   1
Reverse Offset Provision

Prior to 1981, Congress allowed reverse offsets to prevent the inequity of a double
offset when both SSA and a State would offset the benefits provided by each other.
States which had passed reverse offset laws were allowed to reduce the amount of the
State WC payment by the amount of the DI payment instead of SSA reducing the DI
benefit. However, this approach had the effect of using Federal taxes to subsidize
State WC. Therefore, GAO recommended, in a 1980 report,5 that Congress revoke the
legislation authorizing States to reduce WC benefits. Congress later eliminated the
reverse offset option for all States which had not already enacted laws as of
February 18, 1981.6 Nevertheless, at that time, 14 States had reverse offset laws and
they continue to use Social Security DI benefits to offset State WC benefits.

Provisional Payment Process

To implement provisions of section 224 of the Act,7 SSA inquires about WC during the
application process. The claimant is asked whether he has filed or intends to file a WC
claim and, if filed, the status of the claim. If a favorable disability determination is
made, the provisional payment amount is determined, pending actual WC verification,
by using either the amount alleged by the claimant or the State maximum rates listed in
POMS. SSA will initially accept any supporting WC documentation to calculate the
beginning provisional monthly DI payment.

This initial award (the first time a beneficiary receives any Social Security benefits),
reduced for WC payments, can be processed at the FO or the PSCs which includes the
Office of Disability and International Operations (ODIO).8 The PSCs and ODIO process
ALJ rulings and postajudicative actions involving WC payment offsets. ODIO
processes cases where the worker (primary beneficiary) is under age 55. The PSCs
process those cases in which the primary beneficiary is 55 or older. The FOs usually
process initial awards from the State Disability Determination Services and court
rulings. Once a provisional payment is authorized, SSA will send a letter of notification
to each beneficiary, explaining how a portion of the Social Security benefit was affected
by the WC offset. The beneficiary is also advised that, once WC payments are
verified, the WC offset could change resulting in a different SSA benefit amount. Under
POMS, both the provisional and final DI benefits must be reduced so that the combined
disability payment is no larger than: 1) 80 percent of the worker’s predisability earnings
ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
5
 Report to the Chairman on the Committee on the Ways and Means House of Representatives of the
United States, Legislation Authorizing States to Reduce Workers’ Compensation Benefits Should Be
Revoked, (GAO/HRD-80-31), March 6, 1980.
6
    Omnibus Reconciliation Act of 1981, P. L. No. 97-35.
7
    Section 224 (a1, a2, a5, a6, b, d, e, f) of the Act.
8
    ODIO has been renamed the Office of Central Operations.


                                                           2
(average current monthly earnings [ACE]); or 2) the total family benefits (i.e., the sum of
the individual’s Social Security benefits payable to all others based upon his work
record) before reduction.

WC Verification During Postadjudication

During the postadjudication process, SSA will solicit appropriate WC verification from
the primary beneficiary and possibly his attorney. If the worker is unable to obtain the
appropriate verification, SSA will send out third-party verification requests to:
1) insurance carriers, 2) State WC boards, 3) self-insured employers, and/or 4) the
courts. SSA’s policy is to establish 60 and 90-day diaries to follow up on cases where
WC verification is pending and to continue to redevelop and rediary until WC is
verified.

For any other postadjudication adjustment, SSA relies on the beneficiary to voluntarily
report subsequent changes that could affect benefits (i.e., changes in WC payments).
SSA needs to receive independent verification of any reported change prior to the
current offset being modified. Without independent verification, the current benefit
payment remains the same and the offset continues.

Appointed Representative Fees

Section 206(a) of the Act directs SSA to remit a portion of the claimant’s benefit to
appointed attorney representatives assisting a claimant during any or every step in the
proceedings before SSA, i.e., initial determination; reconsideration; and hearing and/or
Appeals Council Review. The appointed representative fees are limited to 25 percent
of the past due benefits or $4,000. The appointed representative fee may exceed
$4,000 if the representative appeals the fee award, files a fee petition, and persuades
SSA to increase the fee.9 However, SSA pays no more than 25 percent of past due
benefits to the appointed attorney. The appointed attorney must collect amounts in
excess of 25 percent directly from the claimant or the auxiliaries.

Past due benefits are benefits accruing to the primary and all related beneficiaries
under title II of the Act because of a favorable administrative determination or decision,
up to, but not including, the month SSA effectuates the determination or decision.
When calculating past due benefits, SSA must consider any WC offset amount. SSA
excludes benefits that a claimant will not receive because of a deduction event.
Therefore, the computation for reducing past due benefits by the WC payments has to
be accurate in order for the attorney fee to be correctly calculated.




ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
9
    Section 2017, 2018 and 2019 of the SSA Handbook.


                                                  3
Protected Increases in DI Benefits

Beginning in June 1975, Social Security benefits were protected from increases in the
cost of living through a cost of living allowance (COLA). COLA help maintain the
purchasing power of DI beneficiaries once a person became eligible. Since 1983, the
COLA has been effective in December of each year. COLAs are provided whenever
the consumer price index rises.

POMS provides for adjustments to the total family benefit (TFB) if there is a change in
family composition. The TFB is recomputed as if the new number of auxiliaries10 was
entitled in the first possible month of offset. However, if an auxiliary no longer meets
the eligibility requirements, the remaining auxiliaries receive a revised equal portion of
the primary insurance amount (PIA). The TFB does not change because of a PIA
recomputation or a COLA increase. According to section 224(a)(7) and (a)(8) of the
Act, any increases in benefits are protected following the first month WC payments
reduced the title II benefits.

Triennial Redeterminations

If the WC offset remains in effect without any interruption, the case will be selected for
                                     rd
a triennial redetermination in the 3 year following the year the offset is imposed and
       rd
each 3 year thereafter. The periodic triennial redetermination a cost of living
adjustment designed to help overcome, in part, the erosion in the earnings replacement
value of disability benefits by taking into account inflationary increases in levels of
earnings. Under section 224(f) of the Act, the triennial redetermination can never result
in a decrease in the total amount of title II benefits payable based on the individual’s
earnings record and becomes effective in January of the redetermination year. The
triennial redetermination does not involve direct contact with the beneficiary or a
reassessment of WC benefits.

Example of WC Offset Calculation

The following example illustrates how a simple WC offset might reduce DI benefits.

A worker was earning $1,652 (ACE) a month before becoming disabled. He is
eligible to receive $728 in total family DI benefits, and $1,083 in monthly WC
payments. According to section 224(a) of the Act, SSA takes the larger of the offset
limit, which is 80 percent of the $1,652 ($1,321) or $728 (DI Benefit), less the
monthly WC payments, resulting in the DI payment being limited to $238.




ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
10
     Auxiliaries are spouses and/or dependent child(ren).


                                                      4
      DI benefit subject to offset                       $    728
      80 percent x $1,652 (ACE)                          $ 1,321
      Offset Limit (larger of $728 or $1,321)            $ 1,321
         Less: Workers Compensation                      ($ 1,083)
      Amount of DI Payable                               $   23811

Prior Audit Reports

GAO, HHS/OIG, and SSA/OPIR have performed audits and reviews of the WC offset
process. These audits identified problems very similar to the ones we are reporting.

In 1983, GAO issued a report 12 which indicated that better case file monitoring of WC
offset could have saved SSA at least $43.1 million in FY 1981. GAO reported that, in
one-third of the cases reviewed, beneficiaries did not report WC benefits to SSA. For
the other two-thirds, SSA failed to follow up on WC information in the case file. For a
long-term solution, GAO recommended that SSA pursue the possibility of computer
matching with the Department of Labor’s WC files to identify individuals collecting
Federal (public) disability benefits. GAO also recommended that SSA do a better job of
case file development and review to identify offset cases. SSA indicated that it would
enhance the case review process by requiring diaries to be set at 6-month intervals as
a reminder to follow up on pending WC benefits. SSA also committed to perform
quality control studies at district offices and PSCs, and to review the offset process.

HHS/OIG issued reports in 199113 and 199314 concerning WC offset. HHS/OIG
reported that SSA had WC overpayments totaling $35 million because WC was not
reported. One reason for the errors was that SSA did not detect or properly code all
WC cases.

HHS/OIG also concluded that the reverse offset laws should be eliminated and
reiterated GAO’s previous recommendation that Congress should rescind the law that
allowed for reverse offset plans prior to 1981. SSA agreed with the importance of
properly coding WC payments, but deferred action on rescinding the law pending
completion of its own study. The SSA study, completed in April 1994, recommended to
ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
11
  The WC offset computation can become more complicated if any one or all of the following must be
considered: 1) mid-month WC rate adjustments; 2) termination of periodic WC payments; 3) lump sum
WC payments with excludable medical and legal expenses; 4) adjustments to periodic WC payments
due to rate changes; 5) periodic payments reduced due to attorney’s expenses; 6) a family composition
including a spouse and/or children; 7) family composition changes; 8) a lump sum and periodic payment
occurring simultaneously; 9) triennial redetermination increases; and/or 10) COLA increases.
12
  “Better Case File Monitoring of the Workers’ Compensation Offset Provision by Social Security
Administration Could Save Millions” (GAO/HRD-83-90), September 30, 1983.
13
     “Unreported Workers’ Compensation Payments” (OEI-06-89-00900), November 1991.
14
     “State Reverse Offset Laws for Disability Benefits” (OEI-06-89-00902), May 1993.


                                                     5
rescind reverse offset State exemptions. Since then, SSA has included a proposal to
rescind the reverse offset provision in its annual package of proposed legislation sent
to the House of Representatives, Committee on Ways and Means.

In response to the 1983 GAO report, SSA promised to perform quality control studies
and to review the offset process. OPIR completed the agreed study in 1985.15 In this
study, OPIR reported that diaries had not been resolved for 2 years after the date of
adjudication in 86 of the 300 cases it reviewed. The result was an average
overpayment of $1,170 per case. The 1985 study recommended that SSA control diary
alerts until the pending WC offset issues were resolved. However, in 1991,16 OPIR
reported that although management concurred with the 1985 recommendation, it was
never implemented. In a 1991 follow-up analysis, OPIR emphasized that 6 years after
its original recommendation, the situation had markedly worsened. OPIR had
examined 209 additional cases with offset issues pending resolution 2 years after
adjudication. Out of the 209 cases reviewed, 144, or 68.9 percent, were still
unresolved 2 years after adjudication. OPIR concluded that this increase in unresolved
offset issues occurred because, in many instances, there was no follow-up contact with
the beneficiary after establishing the one-time diary.

In 1997, OPIR issued another report17 that included disability-related, nonmedical
issues, such as the incorrect handling of WC disability benefits. In this report, OPIR
discussed SSA’s failure to offset or impose offset when issuing the initial benefit
payments. In particular, OPIR was concerned that SSA did not redevelop a case, after
a favorable disability decision, when the original claim was filed months or even years
earlier. OPIR stated that conditions existing at the time of a claim sometimes changed.
For example, a claimant indicated that a WC offset was applicable in the original
application, but later his WC payments changed. OPIR reported that errors often
occurred when WC information on the original application was not updated prior to
adjudication because, for most of these cases, the claim was awarded at the hearing
level, and the WC issue was not revisited when the award was processed. OPIR
concluded in its review of nonmedical issues, that WC issues accounted for the largest
amount of dollar error in its sample. OPIR did not propose a recommendation to
resolve this well-developed issue, nor did the Agency take any independent corrective
action.




ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
15
     1985 Workers’ Compensation/Public Disability Benefits (WC/PDB) Study.
16
  “Corrective Action Recommendation for Workers’ Compensation/Public Disability Benefit Offset
Cases” – ACTION, Report No. S6BA2.
17
     “Results of Title II DI Claims Nonmedical Quality Probe” – ACTION, Report No. S1KG1.


                                                    6
SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed the laws and regulations concerning the
offset of DI benefits with WC payments, and related SSA policies and procedures in
POMS; discussed the WC offset process with SSA’s central office, regional, and FO
personnel to obtain an understanding of how WC payments affect DI benefits;
observed SSA personnel processing WC offset at FOs and ODIO; and viewed records
storage operations at the Rolling Heights Megasite Facility. We also reviewed
evaluations to determine what prior reportable conditions existed involving WC offset.

To test whether SSA reduced title II benefits for individuals receiving WC payments, we
used an SSA data extract from the MBR identifying all beneficiary records with an offset
indicator18 for State WC. We limited our review to those cases involving the offset of
State managed WC benefits. We did not review other public disability benefits
requiring offset under section 224 of the Act including both State and Federal public
disability benefits, or any combination of State managed WC benefits and public
disability benefits. The SSA extract contained 183,881 cases with State WC benefits
covering the period from January 1993 through June 1996. We did not audit the data
extract to determine whether it contained all the WC cases.

From the data extract, we selected a simple random sample of 100 cases. However,
we were later forced to limit our review to 50 cases because, over a 7-month period
from March through September 1997, SSA was only able to locate 67 of the initial
100 cases. After another 6 months, SSA located 18 more of the 33 outstanding cases
for a total of 85 case files out of 100. In addition, for 18 out of the 50 cases reviewed,
SSA did not verify WC. This required us to obtain the missing verification, in order to
determine whether the WC offset was applied accurately from the month of entitlement
through October 1997. As of March 1998, we were still missing WC verification for
13 of 18 cases.

Because of the difficulty in obtaining case files and WC verification, we have based our
projections on the errors identified from our review of 50 cases. However, when we
project, we are using the entire sample of 100 cases assuming that the remaining
50 cases, which were not reviewed, are correct. We also reduced the sample dollar
error by approximately $9,580 by eliminating errors made in fees paid to appointed
representatives. Therefore, we consider the projected dollar errors and the dollar error
rate presented in this report to be very conservative. If we were to review the
remaining 50 cases in our sample, we would expect the projections to increase.

Because of the number and extent of the problems identified in the first 50 cases, we
requested that SSA analyze 10 of the most difficult cases. SSA agreed with our

ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
18
  We selected those cases with an Offset Code for workers’ compensation and an Offset Type identified
as State workers’ compensation.


                                                  7
analysis in 8 cases with only minor changes. We reclassified another case based on
ODIO’s recommendations; however, as a result, the case’s dollar error actually
increased. In the last case, we disagreed with the Agency’s conclusion that acceptable
WC verification was received.

Our audit included an evaluation of existing controls, policies and procedures
specifically related to DI calculations involving State WC offset. The findings in our
report include any control weaknesses identified during the audit and our
recommendations to correct the deficiencies, where appropriate. Site visits were
performed at the following locations: Atlanta and Tucker, Georgia; Baltimore, Maryland;
and Birmingham, Alabama.

Other issues did come to our attention that we believe warrant further audit effort. For
example, we believe that issues surrounding the calculation and payment of appointed
attorney representative fees are sufficiently material to warrant a separate review.
Also, additional audit work needs to be performed to determine whether beneficiaries
reported workers’ compensation payments to SSA. Since these issues are not directly
related to the objective of this audit, they will be developed and reported, separately.
Audit field work was performed from February 1996 through March 1998. This audit
was conducted in accordance with generally accepted government auditing standards.




                                            8
                  R E S U L TS O F R E V I E W

DI benefits were not accurately computed in compliance with WC offset requirements.
In 41 of 50 cases reviewed (some with multiple errors), there were 65 payment
errors resulting in overpayments totaling $209,451 and underpayments totaling
$77,009. While SSA had a formal system for processing title II benefits, the process
was flawed and oversight controls lacked a quality standard to detect problems which
caused payment errors. As a result, title II disability benefits were not accurately paid.
Projecting our sample results, errors totaling $385.1 million in overpayments and
$141.6 million in underpayments may exist in the MBR for a total dollar error of
$526.7 million in 75,391 cases. We estimate that the percent of dollar error, when
compared to what should have been paid, was 8.66 percent of the $6.326 billion in title
II benefits.

COMPUTATION OF TITLE II BENEFITS

From January 1993 through June 1996, 183,881 State WC offset cases received
an estimated $6.326 billion in benefits from their month of entitlement through
October 1997. However, our review showed that a large portion of these benefits were
not computed correctly resulting in a potential dollar error of $526.7 million when
projected to the universe of 183,881 cases. These miscalculations resulted from a
variety of procedural errors which occurred during the application and postadjudication
process. The following chart shows the payment accuracy rates for cases sampled.

                 ACCURACY OF PAYMENTS FOR SAMPLE CASES


               CASES                     TOTAL CASES               PERCENT OF
                                          REVIEWED                   CASES

   CASES WITH ERRORS                            41                       82%
   CASES WITHOUT ERRORS                          9                       18%
        TOTAL CASES                             50                      100%

Based on POMS, a risk of an erroneous payment is greater while WC verification is
pending. However, our analysis disclosed that a high-risk existed for an erroneous
payment regardless of whether WC was verified, or not verified. To demonstrate this,
the following table shows the types of payment errors found in the sampled cases.

                             TYPE OF PAYMENT ERRORS


                                            9
                                                  NUMBER OF                    PERCENT OF
          ERROR DESCRIPTION
                                                PAYMENT ERRORS                  PAYMENT
                                                                                 ERRORS

 Initial Benefits Not Reduced                               3                        4.7%
 WC Not Verified TimelyA                                   13                       20.0%
 Adjustments in Benefits Not                               15                       23.0%
 Appropriate or Inaccurate
 Mishandled Lump SumsB                                      6                        9.2%
 Benefits Adjusted Contrary to POMS                         8                       12.3%
 Triennial Redetermination Untimely                        10                       15.4%
 Appointed Representative FeeB                             10                       15.4%
 TOTAL ERRORS                                              65                      100.0%
 A. SSA did not verify WC payments in 18 cases. We requested that SSA obtain the WC
    verification. As of March 1998, we had WC verification on 5 of the 18 cases.
 B. The delayed verification of WC may also have contributed to payment errors.

Because of the large number of errors identified in the sampled WC cases
($526.7 million total dollar error), we consider the overall weaknesses identified in the
WC offset process to be material under FMFIA. SSA has not effectively implemented
                                                                 19
the WC offset provisions as adopted in its mission statement. In addition, as
discussed below, the current process has produced a variety of payments errors that
could affect the overall accuracy of thousands of title II disability benefit payments.

Timely Verification of WC Payments

WC payment information must be verified to assure the accurate computation of title II
benefits. WC verification was obtained for 32 of the 50 cases reviewed. In 13 of the
32 cases, WC verification was received timely. For the remaining 18 cases, WC
verification was not obtained and benefits continued to be offset based on the initial
unverified information provided by the claimant or the claimant’s attorney. As of March
1998, we were successful in obtaining WC verification for 5 of these 18 cases. In each
of these cases and in 5 of the 32 cases, payment errors totaling $33,198 occurred
because the verified WC amount differed from that used in calculating the provisional
benefit amount. For 37 cases, overall delays ranged from 1 to 71 months allowing
payment errors to continue for the same period before correction. By not verifying WC
information timely, SSA caused incorrect payment amounts totaling $51,908 through
October 1997.
Per POMS, SSA is not required to verify WC information until the claimant receives a
favorable disability decision. When a disability claim is adjudicated, SSA contacts the
ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
19
  Mission Statement: To administer national Social Security programs prescribed by legislation in an
equitable, effective, efficient, and caring manner.


                                                  10
claimant, “postadjudicatively” for the WC verification. If WC verification is not readily
available, SSA is required to initially offset the monthly DI benefit based on either the
alleged amount or the State maximum. When obtaining WC verification, the
worker/beneficiary should always be the first source. According to POMS, the worker’s
attorney can only be used as a source if the attorney provides award notices,
settlement agreements, and/or a statement on the amount of the legal fee which
confirms the amount of the WC award. If SSA is unable to obtain the information from
the worker or the attorney, SSA can request third-party verification, i.e., from State WC
agencies. However, in cases where the file documentation contained conflicting
information, State WC boards and/or the insurance carriers were not always contacted
to resolve the conflict. Additional verification and explanation was not requested from
the worker which resulted in unnecessary delays.

In at least 18 of the cases, either WC verification was not obtained or the case worker
accepted inappropriate WC verification and failed to rediary and redevelop as required
under POMS until the WC issue was resolved. In one case, title II benefits were
reduced using information that the worker’s attorney submitted which was neither a
court settlement nor an award notice. SSA used this documentation as verification and
adjusted the DI benefit using the attorney’s alleged amount. While this would be an
appropriate tactic to estimate the provisional DI benefit, appropriate WC verification
should have been subsequently obtained. The case worker should have established a
diary to indicate that WC verification was still pending. The case should have been
redeveloped and rediaried until WC verification was obtained and the correct monthly
benefit calculated.

Overall, 37 of the 50 cases we reviewed showed delays ranging from 1 to 71 months
when obtaining WC verification. As of October 1997, it took an average of
22.5 months, from the date a case was adjudicated or when SSA became aware of
WC payments until WC verification was received. Out of the 37 cases 23 were ALJ
cases that, on average, took 22.6 months following the ALJ decision or when SSA
became aware of WC payments to obtain the needed WC verification. The remaining
14 cases took an average of 22.3 months following adjudication or when SSA became
aware of the WC payments to obtain WC verification.

If SSA had verified WC payment information timely, it could have prevented those
situations where a disabled worker might: 1) receive more in disability benefits than
the disabled worker was earning prior to becoming disabled; or 2) receive more, or
less, in monthly benefits than the disabled worker was entitled because the estimated
amount of WC payments provided was incorrect or subsequently changed. Without
timely confirmation of WC benefits, accurate monthly DI benefits cannot be assured.




                                           11
Reduction of Title II Disability Benefits for State WC Benefits

In 3 of 50 cases, title II benefits were overpaid because DI claims were not offset for
WC benefits. In two of the cases, file documentation indicated that the claimant
alleged receiving WC payments, but SSA did not compute and reduce the initial DI
benefits. In the third case, SSA did compute a WC offset, but this data was not used to
offset the initial DI benefit. SSA eventually discovered these errors but not until
$35,555 in DI benefits were overpaid.

Under section 224 of the Act, once SSA determined that a WC offset was applicable,20
the DI benefit should have been reduced prior to releasing the first monthly payment
following the favorable disability decision. If available, SSA should use the verified WC
amount to calculate the title II benefit reduction. If WC verification is not immediately
available, SSA will use either the amount alleged by the claimant or the State maximum
amount to calculate the initial offset. Anytime a claimant is receiving WC payments, the
DI benefit must be offset.

Subsequent Changes in WC Payments

Subsequent changes in State WC benefits that directly affected DI benefits were either
not identified or, if identified, incorrectly adjusted in 15 of the 50 cases. In 6 of the
50 cases, the beneficiaries failed to report changes in State WC benefits, which
resulted in payment errors of $61,369. In another seven cases, when changes in State
WC benefits were reported, adjustments to the DI benefit were not correct, resulting in
overpayments of $12,081 and underpayments of $17,171. In the last two cases, WC
offset was removed without supporting documentation resulting in $9,442 in
overpayments. These monthly DI payment errors were caused, in part, because
subsequent changes in WC payments were not identified and addressed. In addition,
a lack of quality standards and controls contributed to SSA’s inability to detect these
errors.

POMS states that, after the WC offset is initially imposed, any change in the WC
payment rate requires a recalculation of benefits. A recalculation is required when SSA
receives documentation indicating that a State WC case is closed and there will be no
further WC payments or awards, or when the WC payment rate otherwise changes.
Depending on the change, the new offset computation may result in either an increase
or decrease in total benefits payable to the family. SSA relies totally on the beneficiary
to report any subsequent changes in State WC benefits.




ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
20
  A WC offset may not be applicable if the based on a high ACE or if WC benefits are from a reverse
offset State.


                                                 12
In the six cases where SSA previously verified WC, we obtained subsequent
verification indicating the WC rate had changed in 4 of the 6 cases resulting in payment
errors totaling $2,096. In the remaining 2 cases, SSA overpaid benefits totaling
$59,273. One of the case’s documentation indicated, after adjudication, a subsequent
disability claim resulted in the claimant receiving State WC payments. In the remaining
case, the case documentation indicated the benefits ended. Subsequent verification
indicated that WC payments continued for over 1 year after the WC offset was removed
and then a lump sum was awarded. In all six cases, the beneficiaries failed to notify
SSA of the change in WC benefits.

In seven of the other nine cases, even after case workers obtained documentation to
support subsequent State WC payment changes, the changes made to the monthly DI
benefit were incorrect. This resulted in overpayments totaling $12,081 and
underpayments totaling $17,171. For example, in one instance, there was an
adjustment to a claimant’s payment rate where partial payments were received for
2 months with no WC payments in another month. The DI benefit was offset for the
entire 3 months. Per POMS, if WC payments are not received for the entire month,
recalculating the offset requires SSA to reduce the monthly DI benefit pro rated by the
number of days during the month when WC payments were received. In another case,
the WC payments ended during the month. The DI payment was reduced for the entire
month. Again, the benefits should have been reduced only by the number of days in
the month WC payments were received. In one more case, documentation indicated
that a WC rate change occurred but the monthly benefit was not adjusted. For two
other cases, WC offsets were removed, but there was no documentation in the case file
to support the removal resulting in overpayments totaling $9,442. To prevent future
payment errors, changes in State WC benefits should be closely monitored and, once
discovered, accurately applied to ensure that the monthly DI benefits are appropriately
adjusted.

Lump Sum WC Settlements Impact Title II Benefits

Monthly DI benefit payments were not correctly computed for six cases when lump sum
WC payments were involved. In one case, there were errors in computing the lump
sum offset that resulted in an underpayment. In another case, the case worker did not
offset DI benefits when the beneficiary disclosed a lump sum WC payment. In one
more case, there was a delay in removing the lump sum offset that resulted in an
underpayment. In another case, a payment error occurred because the implementation
of the offset was delayed. In one more case, SSA incorrectly offset a periodic payment
like a lump sum settlement. In yet another case, SSA without justification selected a
method that did not pay the highest total family benefit. The resulting errors in these
cases totaled $17,442 in overpayments and $9,403 in underpayments. These errors
occurred because appropriate action or follow-up action was not taken. For example,
case workers should have followed up to execute the delayed WC offset, and



                                          13
accurately and timely removed lump sum offsets when an offset is terminated. In these
six cases, the lack of case follow up and quality assurance review resulted in a total
dollar error of $26,845.

The process of reducing DI benefits by the amount of the lump sum requires SSA to
begin the offset based on the period specified in the award. If this is not disclosed and
periodic payments are awarded prior to the lump sum, offset should begin the day after
the periodic payments end. If periodic payments are not involved, SSA should use the
date on the lump sum settlement to begin the offset. The total lump sum benefits used
in the offset calculation may be reduced for attorney, medical, and miscellaneous
expenses that were included in the award settlement.

The lump sum should be prorated, by comparing three methods, and selecting the one
method that is most beneficial to the entire family. The differences among the methods
are that one delays the imposition of the offset, another reduces the weekly rate based
on a percentage of the expenses, and the last removes the offset at the earliest
possible time. In most instances, the method that pays the most total family benefits
will be selected. These exceptions include when imposition is delayed and an
overpayment occurs, there is a future effect of a reverse offset situation, or the worker
is terminally ill. The case worker must set diaries for any unresolved issues in the
offset process, i.e., when an action needs to be taken at a later date. However, in 6 of
the
50 cases we reviewed, the necessary follow-up actions were not taken or quality
assurance reviews were not performed which resulted in incorrect monthly DI benefit
payments.

Compliance with POMS

In 8 of the 50 cases, individual monthly benefit amounts were adjusted contrary to
provisions in POMS. In one case, the monthly benefits of an individual were incorrectly
adjusted when a change occurred in her PIA following the initial offset. We found
seven other cases where the COLA was inaccurately calculated. COLAs are protected
increases in benefits; however, COLAs were inaccurately calculated based on changes
in the family composition in five of the seven cases. In the sixth case, the beneficiary
was not paid an increase in benefits due to a COLA adjustment. In the seventh case,
the COLA was not adjusted proportionally to the total family benefit. Errors in
calculating the COLA adjustments resulted in both overpayments and underpayments
totaling $15,771. These DI payment errors were caused, in part, because there was a
lack of quality standards to detect these errors.

Timely Triennial Redeterminations Prevent Underpayments

Of the 50 cases, 22 required triennial redeterminations. Triennial redeterminations in
15 out of 22 cases were not completed timely. For 10 of the 15 cases, underpayments


                                           14
resulted totaling $8,501. For the remaining seven cases reviewed, we could not exact
the time it took to make the triennial redetermination because the documentation was
not dated and signed; or there was no documentation; or there was no increase in
benefits. We could not establish, nor did SSA establish, that all the triennial
redeterminations were accurately completed.

SSA is required to complete a triennial redetermination on identified DI cases.
Triennial redeterminations are another type of cost of living adjustment designed to
help overcome, in part, the erosion in the earnings replacement value of disability
benefits. The triennial redetermination can never result in a decrease in the total
amount of
title II benefits payable based on the individual’s earning record and becomes effective
in January of the redetermination year. However, the actual time it took SSA to
complete these triennial reviews ranged from 3 to 46 months past the January effective
date. By not performing timely triennials, beneficiaries did not receive the level of
service expected when Congress enacted the triennial redetermination provision.

Historically, the test file that identifies the disability cases meeting the criteria for the
January triennial redetermination has not been created until March of the same
calendar year. Because the triennial review requires a series of validation tests, the
system release and implementation did not actually occur until mid to late May.
Therefore, SSA normally could not begin to process the cases selected until sometime
in June. This was 6 months after the January effective date. Also, because SSA did
not establish a time limit to complete the triennials, some reviews were often delayed
for several more months.

SSA officials informed the audit team that the MBR did not have any limitations which
would prevent the test file from being completed earlier than mid to late May. In fact,
staff indicated it was possible to perform the initial testing of the extract during
November or December with the final extract available in February - the month
following the January effective date. If SSA would place a time limit on completing
triennial redeterminations, it would be possible to have the triennials completed 2 to 4
months following the January effective date.

While triennial redeterminations currently remain a requirement, in its 1996 legislative
proposal, SSA recommended that triennial redeterminations be discontinued. SSA
recommended this change because triennial redeterminations act as a type of COLA.
The legislation that created the triennial redeterminations was enacted before the
automatic COLA and, in SSA’s opinion, the triennial redetermination largely duplicates
the automatic annual COLA, which is protected from offset. Thus far, Congress has not
acted to rescind the triennial redetermination requirement.

Appointed Representative Fees Impact the Monthly DI Benefit



                                              15
Based on our analysis in 8 of the 32 cases, the appointed attorney representative fee
paid was in error which adversely affected the workers’ title II benefits. When a worker
enters into a fee agreement or petition with an appointed attorney representative, SSA
redirects a portion of the claimant’s past due benefits to the attorney representative.
                                                                            21
The fee is usually associated with a percentage (maximum of 25 percent) of the
worker’s past due benefits. Past due benefits are defined as benefits from the month of
entitlement up to the month prior to effectuating a favorable disability decision.
Therefore, SSA must verify WC payments and calculate the WC offset reduction prior
to calculating and paying the appointed representative fees on past due benefits.
Nevertheless, in these eight cases, SSA did not verify WC timely to accurately
determine past due benefits and, without the accurate calculation of past due benefits,
the resulting appointed attorney representative fees were incorrectly paid.

Training Needed to Effectively Implement WC Offset Provisions

FO and PSC personnel lack the expertise needed to effectively implement the WC
offset provision which is considered a cumbersome, complex, and confusing topic.
Currently, SSA only provides 3 hours of training for the CRs and 16 hours of training for
the CAs. SSA expects that following this training, managers at the FOs and PSCs will
assign personnel to provide on-the-job-training and mentoring. However, based on the
number of errors found in the 50 cases we sampled, it was evident that this training
was insufficient. CRs and CAs processing claims either did not have a proficient
knowledge of the established WC offset process or did not have enough time to
effectuate that process.

Operational Goals Affect WC Cases

ODIO management operates in a manner to expedite the processing of cases. This
requires staff to process the more complex workload, such as WC cases, in the same
timeframe as less complex workloads. This adversely affects the accuracy of the DI
benefit. At one time, POMS stated that:

          “Adjudication is a delicate and complex job. If allowed to degenerate into
          an assembly line process, it can be dull and routine and lose much of its
          value, to the detriment of the claimant and SSA. If, on the other hand,
          each case is handled individually, as it should be -on its merits- it can be
          rewarding to the adjudicator, and it will result in work of a higher quality.”22

While this cite was removed from POMS, the delicacy and complexity of processing
title II benefits involving WC payments remained unchanged. Nevertheless, the
ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
21
  Fee agreements are 25 percent of past due benefits not to exceed $4,000. Appealed fee agreements
and fee petitions can exceed $4,000 but SSA will not pay more than 25 percent of past due benefits.
22
     POMS section 4501b.


                                                16
management environment emphasized managing workloads which lacked a quality
standard control. The result had an adverse impact on the quality of the actions taken
when calculating WC benefit payments.

For example, ODIO managed its cases by aging pending case actions and working
those on a first-in-first-out basis. Under this procedure, the oldest pending actions
were worked first. WC actions can require at least three actions involving the CA,
benefit authorizer (BA), and typist. ODIO measured performance by counting, among
other measures, the number of actions completed, the time it took to complete the
action, and the remaining backlog. The overall objective was to timely process pending
actions to effectively manage the existing backlog. For example, the overall CA
backlog was expected to remain at less than 30 days. In addition, there were other
measures that CAs had to address such as working all ALJ decisions, which includes
WC offset, in less than 10 days. To meet these measures, CAs were conscious of the
amount of time it took to process an individual action. BAs and typists had other
individual production measures keyed on their ability to timely process pending actions.

WC actions, by their nature, adversely affected management’s measures because they
were time consuming. Based on our observations, management was not considering
the complexity of working WC offsets when evaluating performance under this time-
driven management process. The emphasis put on the ability of CAs and BAs to
complete actions and maintain an acceptable backlog did not take into consideration
the quality of the work. As shown in this report, the loss of quality resulted in
undetected payment errors. Consequently, the WC offset process lost much of its
value to the detriment of SSA (estimated overpayments $385.1 million) and to the
claimants (estimated underpayments $141.6 million).

SSA CONTROLS OVER THE WC OFFSET PROCESS

SSA had a formal system for processing title II benefits but our review disclosed that
the oversight controls established were often weak and lacked the ability to prevent
and detect payment errors. We found that the diary process did not provide assurance
that WC issues were appropriately resolved. Record management was also a problem.
There was a general lack of supervisory review over the processing of WC cases, and
procedures failed to assure that potential fraud cases were referred to OIG. Even
when errors were detected (12 cases in our sample, totaling $85,966), SSA’s ability to
collect the overpayments was hindered because of the beneficiaries’ inability to pay.
However, there were 23 cases in our sample with overpayment errors that went
undetected. These cases had a combined total dollar error which amounted to an
additional $123,485 in overpayments for a sample total of $209,451. However,
underpayments were equally as troublesome because beneficiaries were deprived
benefits to which




                                           17
they were entitled. There were 23 cases in our sample where beneficiaries were
underpaid a total of $77,009. In 10 cases, beneficiaries were underpaid amounts in
excess of $1,000 each for a total of $72,952.

Diary Process Intended to Ensure Appropriate Resolution of WC Issues

SSA’s diary process was ineffective in assuring that outstanding WC issues were
appropriately resolved. The diary process that existed during the period under review
was a manual process. If any of the procedures for establishing a diary were not
completed, or not completed accurately, the diary might not exist, or might exist but not
be responded to as required. We found a case where one beneficiary was overpaid
when a postponed lump sum was not offset timely and another beneficiary was
underpaid when a lump sum was not removed on its scheduled termination date. In
both of these cases, we could not determine whether diaries were established. In other
cases where diaries were established, we could not always determine what action was
taken, if any, to resolve the pending issue.

Records Location and Maintenance

ODIO could not readily locate case files which could inhibit the resolution of
outstanding WC issues and the calculation of correct monthly DI benefits. Also, case
files may be incomplete due to poor records management practices. Given 13 months,
SSA was only able to locate 85 of the 100 case files we requested. SSA established a
Megasite (record) storage facility to track and maintain all disability case files for
individuals under age 55. SSA indicated that it was difficult to obtain files because the
tracking system was not always accurate and up-to-date. The inability to locate 15
percent (15 of
100 cases) of a random sample of records is cause for concern. In addition, the fact
that an estimated 1.9 million documents were awaiting filing at the Megasite raises
questions about SSA’s file maintenance practices. The fact that WC case files did not
have appropriate WC verification may be directly related to this filing problem.

The intent of the Megasite was to make the process of obtaining files more efficient. In
the course of obtaining a case file, a file request is made to the last holder of record.
However, if the case file is actually located somewhere other than where the tracking
system indicates, no one would respond to the case file request until the file’s current
site records its location. From SSA’s extract of 183,881 State WC offset cases
provided in March 1997, we requested SSA to provide 100 case files for audit. During
the 7 months from March 1997 through September 1997, SSA was only able to locate
67 of the initial 100 case files. From October 1997 through March 1998, an additional
6 months, SSA located 18 of the remaining 33 cases for a total of 85 out of the
100 case files sampled.

ODIO will offset using the provisional WC payments and process the case to initialize


                                           18
benefit payments. Usually, the case is then forwarded to the Megasite. At a later date,
ODIO should receive the WC verification. ODIO will then make any appropriate
adjustments which can generate additional documentation, i.e., form SSA-1203. Once
finished, ODIO sends the WC verification and any additional offset documentation to
the Megasite. The Megasite should associate this verification and documentation with
the case file. However, while SSA may have obtained appropriate WC verification, it
was not being associated with the case file during postadjudication. While the
Megasite off-site storage facility was responsible for associating WC verification and
SSA forms with the disability case files for individuals under the age of 55,23 it was not
being routinely accomplished.

During our visit to the Megasite in December 1997, we observed bundles containing
thousands of documents, located in a general unrestricted work area open to all staff,
which were waiting to be filed. We observed that this area had an active flow of staff
traffic. Staff at the Megasite indicated that these bundles represented all types of
information which included WC verification and documentation sent to the Megasite to
be associated with the case files. The Megasite estimated that 1.9 million documents
currently needed to be filed. The backlog existed because the Megasite did not have
an established process that routinely associated the bundles of information with the
appropriate case file. Therefore, some of the WC case files we reviewed could be
incomplete.

Supervisory Review of WC Offset Process

Supervisory review should play an important part in assuring the quality and accuracy
of the service provided in WC cases. However, SSA has not established an adequate
measure to assure the quality of the front-line process. The only front-line supervisory
review planned was one case file review per month per adjudicator. However, the
chance that the one case would be a WC offset case was remote. We found no file
documentation that evidenced any routine supervisory quality assurance review of the
WC offset process.

WC Quality Assurance Reviews

OPIR has performed several reviews involving nonmedical DI benefits, including WC.
As discussed below, these reviews performed 1, 7, and 13 years earlier evidenced
some of the same conditions which are presented in this report. Nevertheless, the
conditions persist and, as reported, significant DI overpayments and underpayments
occurred because corrective actions were not taken.




ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
23
     Age 55 effective November 1997.


                                            19
In 1985, OPIR completed a study24 in response to a 1983 GAO report where SSA
promised to perform a quality control studies and to review the processing of potential
WC offsets. In the 1985 study, OPIR reported that diaries involving pending WC
issues had not been resolved for 2 years after the date of adjudication in 86 of the 300
cases it reviewed for an average overpayment of $1,170 per case. OPIR
recommended that SSA control diary alerts until the pending WC offset issues were
resolved. However, in 1991,25 OPIR reported that management concurred with the
1985 recommendation, but did not implement necessary corrective actions. OPIR
reported that 6 years after its 1985 recommendation, the situation had markedly
worsened. OPIR had examined
209 additional cases with offset issues pending resolution 2 years after adjudication.
Out of the 209 cases, 144, or 68.9 percent, were still unresolved. OPIR concluded that
this 40.3 percent increase in unresolved offset issues occurred because, in many
instances, there was no follow-up contact with the beneficiary after establishing the
one-time diary.

In 1997, OPIR issued another report26 that included disability related, nonmedical
issues, such as the incorrect handling of WC disability benefits. In this report, OPIR
discussed SSA’s failure to offset or impose offset when issuing the initial benefit
payments. In particular, OPIR was concerned that SSA did not redevelop a case, after
a favorable disability decision, where the original claim was filed months or even years
earlier. OPIR stated that conditions existing at the time of a claim sometimes changed.
For example, where a claimant indicated that a WC offset was applicable in the original
application but later his WC payments changed. OPIR reported that errors often
occurred when WC information on the original application was not updated prior to
adjudication because, for most of these cases, the claim was awarded at the hearing
level, and the WC issue was not revisited when the award was processed. OPIR
concluded in its review of nonmedical issues, that WC issues accounted for the largest
amount of dollar error in its sample. While this issue was well developed, OPIR did not
propose a recommendation to resolve this issue, nor did the Agency take any
corrective independent action.

OPIR reviews are an integral part of SSA’s management control over operations.
When OPIR identifies significant adverse conditions as discussed above, SSA
management should take appropriate corrective actions to resolve the reported
problems. WC issues should remain a major focus in OPIR’s annual quality assurance
process to assure that the problems identified in this report, and OPIR’s prior reports
are corrected.


ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
24
     1985 Workers’ Compensation/Public Disability Benefits (WC/PDB) Study.
25
     “Corrective Action Recommendation for WC/PDB Offset Cases” – ACTION, Report No. S6BA2.
26
     “Results of Title II DI Claims Nonmedical Quality Probe” – ACTION, Report No. S1KG1.


                                                   20
Overpayment Recovery

As discussed, WC errors generally went undetected by formal oversight systems.
However, even when discovered, SSA often was unable to collect overpayments.
For example, SSA’s ability to recover funds on 12 cases in our sample having
$85,966 in overpayments, as of October 1997, was limited. SSA waived $9,268 in
overpayments and recovered $32,445 as of October 1997. However, $44,253 in
overpayments remained outstanding. Recovery is difficult for WC overpayments
because the beneficiaries involved often do not have the financial ability to repay.
When we projected the funds which were waived and recovered to what we estimate
SSA would find in the total population based on the 12 cases discussed above, SSA
would resolve only about $76.7 million (48.5 percent) of $158.0 million identified in
overpayments. If we compare the total overpayments which would be waived or
recovered by SSA ($76.7 million) to the projected $385.1 million in total overpayments
estimated from our total sample, SSA would have resolved only 20 percent. This could
potentially leave $308.4 million dollars in overpayments outstanding. Hence, the
importance of establishing sufficient management control is to prevent overpayments in
the first place.

Refer Potential Fraud to OIG

ODIO did not have adequate controls to ensure that three cases involving potential
false statements, which cost the SSA trust fund $39,310, were referred to SSA/OIG. All
cases that may involve fraudulent activity should be referred directly to OIG for
investigation. It is OIG who has the responsibility for all matters related to fraud;
therefore, failing to refer potential fraud cases hinders SSA’s ability to deter inaccurate
disclosures by applicants and affects the OIG investigative process.

For example in one of the cases, the claimant’s application for SSA benefits stated that
she was not receiving WC benefits because her case was under appeal with the State.
Therefore, SSA did not apply an offset to the monthly DI benefit for State WC
payments. While this was an appropriate response, it took 24 months after initializing
benefit payments to receive the verification. Once received, the WC verification
indicated that the claimant was receiving WC payments at the time of her application.
The impact was a $12,584 overpayment. The claimant later requested a waiver that
ODIO denied. The beneficiary then claimed financial hardship and ODIO agreed to
accept repayment by deducting $75 each month from the claimant’s benefit payments
beginning February 1997. As of October 1997, SSA has only recovered $675 of this
overpayment. Based on the agreement, it will take SSA 14 years to recover the amount
of the overpayment.

ODIO concluded that the claimant indicated the WC case was under appeal and
agreed to promptly report any receipt of WC during the application process. Later, the
beneficiary reported WC payments but did not provide verification. The beneficiary


                                            21
failed to comply with SSA’s request to provide WC verification. ODIO finally obtained
verification through a third-party request which documented that the beneficiary was
receiving WC payments when the beneficiary applied for title II benefits. The
beneficiary did not provide the WC verification timely, and SSA determined that the
beneficiary was at fault for causing the overpayment. In addition, we requested SSA to
reverify the WC payments. SSA was able to find an additional $83,250 in a third-party
lump sum settlement which the beneficiary had failed to report. For the remaining two
cases, one beneficiary indicated that the WC payments ended prior to entitlement.
However, subsequent documentation indicated the beneficiary was receiving payments
when the beneficiary applied. The other case involves documentation indicating WC
payments had been denied and no appeal was pending. However, this document was
not signed nor dated. Therefore, we contacted the State and verified that this
beneficiary was currently receiving WC benefits.

Based on the documentation in the case folders, there was sufficient evidence of
potential fraud for SSA to refer two of these cases directly to the OIG for investigation.
In the third case, we found the evidence to support the removal of WC offset
inadequate that raised questions regarding the authenticity of the documentation. SSA
indicated that the authenticity of documentation would normally not be questioned.
Therefore, SSA would neither have identified an overpayment nor referred this case to
the OIG for investigation. SSA’s policy requires that files contain adequate verification
to support the removal of WC offset. In this case, the verification did not meet the
Agency’s policy. ODIO should not grant waivers or arrange settlements until OIG has
an opportunity to complete a review of each potential fraud case.




                                            22
 CONCLUSIONS AND RECOMMENDATIONS

Our audit of WC offset cases disclosed that WC was not accurately offset 82 percent of
the time because SSA: 1) failed to obtain WC verification or received it untimely;
2) failed to accurately adjust for changes in WC payments; 3) used incomplete or
inaccurate processes when reducing DI benefits for WC lump sum settlements; 4) did
not comply with POMS when making postadjudication adjustments; 5) completed
required triennial redeterminations untimely; and, 6) miscalculated appointed
representative fees. These problems occurred because SSA’s control process was
ineffective not only in preventing errors, but in detecting and correcting errors. SSA
was ineffective in resolving those overpayments that were discovered. Finally, we
found two cases, involving potential fraudulent actions, which SSA did not refer to OIG.

As a result, WC offset errors occurred which resulted in a potential total dollar error of
$526.7 million. This total consists of $385.1 million in overpayments, much of which
may never be recovered, and $141.6 million in underpayments that must now be paid
to beneficiaries. In effect, SSA has not assured that WC payments are effectively
offset against DI benefits.

We recommend that SSA:

Â   Recognize and identify WC offset as a reportable internal control weakness under
      FMFIA, including its significant $526.7 million effect on the MBR, and the
      shortcomings in the administration and processing of workers’ compensation
      offsets.

 Â   Review cases in our sample to determine the proper benefit amount and take the
      required actions on the $209,451 overpayments and $77,009 underpayments.

!Â   Emphasize timely referrals of cases to OIG where criminal or civil fraud is
      suspected.

"Â   Increase front-end reviews to more than one case per adjudicator each month 
      I the back-end,ÂOPIR should continue to conduct reviews on the high-risk areas
      of WC Offset.ÂÂThe reviews should include the controls established to reduce
      high-risk, as well as a review on the accuracy of WC offset payments.

#Â   Establish a specialized group of WC adjudicators and reviewers to process the
      highly complicated WC offset claims.

$Â   Attempt to identify diaries that may have been lost or not implemented for the

                                            23
       183,881 WC cases in order for WC to be properly offset.

%Â    Require that cases be redeveloped, after a favorable disability decision, where the
       original claim was filed months or even years earlier.

&Â    Strengthen controls by requiring, every 3 years, a reverification of the status of
       State WC, especially in cases where there has been a prior removal of a WC
       offset.

'Â    Change the current regulation allowing the calculation of the WC offset against
       the initial DI benefits based on an alleged amount provided by the claimant. The
       regulations should require that, in cases when WC has not been verified prior to
       initial payment, the offset should always be calculated based on the State WC
       maximum. This change would provide an incentive for the claimant to produce
       timely WC verification to SSA and significantly reduce the number of
       overpayments that are now occurring.

Â   Determine why the case file tracking system is unreliable in locating critical SSA
       records in a timely manner.

Â    Revise the Megasite records policy regarding the filing of supplemental
      information
        in case files. Filing should be performed in a timely manner.

 Â   Implement an MBR control whereby action must be taken on the WC offset
       indicators prior to authorizing benefits.

!Â   Strengthen quality assurance programs and training to reduce potential program
       errors by: 1) following POMS procedures that were established to process State
       WC payment offsets; 2) being proactive in obtaining WC verification and
       accurately calculating benefits; 3) minimizing the number of cases sent to ODIO
       without WC verified; 4) expediting the processing of the system extracts for
       triennial redeterminations earlier in the year; 5) establishing a time period in which
       triennials should be completed and prioritize the workload so that all triennials are
       completed timely and accurately; and, 6) assuring COLAs are calculated
       accurately.

AGENCY COMMENTS

SSA recognized the complexity of WC cases and the fact that WC cases were prone to
error. However, SSA raised concerns in four areas. First SSA was concerned with our
definition of an error. The Agency took the position that an error should not be
reported if there was an adjustment action or in cases where a beneficiary failed to
report information. Second, SSA contended that the percentage of appeal cases in our


                                              24
sample was higher than the percentage of appeal cases in the total WC population
and; therefore, the dollar error reported was inflated. Third, SSA rejected our
recommendation to report the WC offset issue as a material internal control weakness
under FMFIA. SSA maintained that the dollar amount involved was insignificant, in
terms of percentage of benefit outlays. Also, with efforts underway to reduce errors,
SSA would not report the WC offset as a material weakness. Fourth, SSA did not
agree that the WC offset should always be calculated based on the State WC
maximum or reverified before establishing the initial DI benefit. SSA’s experience was
that this could cause more incorrect payments.

Overall the Agency agreed with or has taken action on 11 of the 13 reported
recommendations. SSA also provided a limited number of technical comments that
were considered and incooperated in the final report. The full text of SSA’s comments
is included in Appendix E.

OIG RESPONSE

During the comment period, SSA requested a meeting to provide us with an
understanding of its policy on reporting errors. SSA’s payment policy is to establish the
DI benefit based on information obtained during the initial application and adjust the
benefit later when changes in WC payments are identified. SSA believes this system
will pay the beneficiary quicker and its internal controls will identify and correct benefit
payment errors. As a result, the Agency maintains the only effect on the program is the
timing of the correct payment. We agree that this policy would be appropriate for
payment systems that have a high volume, low risk of error, and strong internal
controls. Unfortunately, WC cases do not fit in this category. By SSA’s own admission,
WC cases are highly complex and error prone. Our results collaborate this
assessment. A “pay now adjust later system” has not proven to be successful since our
review disclosed payments with an 82 percent error rate. SSA’s controls were not
sufficient to detect these errors.

SSA’s policy for reporting errors conflicts with the way we have reported errors in this
report. SSA believes that errors should not be reported when, an adjustment action
takes place or the beneficiary failed to report information. However, we believe that to
evaluate the accuracy and reliability of its process, all payments issued in error should
be disclosed regardless of whether the payment was later adjusted or not. Based on
our analysis, the effect of the errors which SSA would not report is more far reaching
than a timing difference. The failure to pay the appropriate DI benefit amounts result in
a loss of program dollars, a failure to meet its commitment to world-class service, and
imposes negative public opinion on the integrity and reliability of SSA’s payment
process.




                                            25
Our review detected total errors of $286,46027 out of which $85,96628 represented
overpayments identified by SSA. At the completion of our fieldwork, SSA had
recovered only $32,445 with the remaining amounts of $9,268 waived, $18,484 in
reconsideration or waiver status for over 2 years, and $25,769 in payment plans
extending between 3 to 17 years. In addition to the overpayments, there was
$77,009 in underpayments.

Of the $286,460 in errors, $51,710 was the result of weak procedural policy. It was
typical for SSA to base its payment on information obtained at the time of application
even when the case has been under appeal for 2 years. Although SSA processed
these cases according to its existing policy, a change in policy or controls would have
prevented or lessened the overpayment amounts. For example, in one case, SSA did
not offset at the initial award because the claimant indicated WC was pending at the
time of application. Sixteen months after the claim was filed, SSA reached a fully
favorable disability decision and issued full benefits covering the month of entitlement
through the month of the initial award. If prior to issuing this award, SSA had contacted
the beneficiary, he could have informed SSA he was receiving WC payments and
thereby avoided the $11,218 overpayment. It will take SSA over 5 years to recover this
overpayment.

The positive effect of paying a beneficiary quicker and adjusting the payment later
should be balanced with the negative effect on the beneficiary and the perception of
the public that SSA does not process claims accurately. Individually, a beneficiary who
has to repay an $11,218 overpayment, or collectively, the perception of all beneficiaries
who are affected by a process that results in an 82 percent error rate, should require
management to review its existing payment policy and take corrective action.

SSA contends that the number of appeal cases in our sample is high in relation to the
mix of all WC cases. In subsequent conversations with SSA’s management, the case
mix of the WC population was presented as 20 percent appeal cases. This is important
because the effect of a higher case mix would result in an inflated dollar error since
appeals cases produce higher dollar errors. We have reviewed the relationship of
appeal cases to the 50 cases reviewed and to a 200 case sample from the population.
We found that 34 of the 50 cases (68 percent) were appealed while 131 of the
200 cases (66 percent) were also appealed. These relationships appear consistent
and do not indicate that the mix of cases is aberrant. We have asked for
documentation to support the Agency’s claim of a lower case mix. Specifically, we
requested computer



ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
27
     This represents a total of $209,451 in overpayment errors and $77,009 in underpayment errors.
28
  The difference between the total overpayments of $209,451and the $85,966 is $123,485 that
represents additional overpayments identified during our audit.


                                                    26
printouts, manual analysis, or other supporting documentation including systems
validation used for management’s assertion. However, SSA’s has not provided any
documentation for us to analyze.

SSA rejected our recommendation to report the WC offset issue as a material internal
control weakness under FMFIA. SSA contends that if one considers total benefit
outlays and the Agency’s efforts underway to reduce errors, the $526.7 million is not
material. Nevertheless, we continue to believe that WC offsets should be reported
under FMFIA. Doing so would demonstrate that SSA places a high commitment on
paying benefits accurately in line with its pledge to provide world-class service.

In determining whether to report WC offset under FMFIA, the Agency should consider
that the dollar errors reported are very conservative. Because of the difficulty
encountered in obtaining case files and the number of payment problems identified, we
limited our actual review to 50 cases. Nevertheless, when we projected our sample
results to the entire universe of 183,881 WC cases, we based those projections on our
sample size of 100 cases. Using this methodology, OIG is accepting 50 cases as being
totally correct which makes the projections in the report extremely conservative. The
projections are conservative because, based on the number of problems found in the
50 cases, the probability that the remaining 50 cases are free from error is remote.

The Agency should also consider that prior audits and reviews have demonstrated a
long history of payment errors relating to WC offset with little or no success by
management to lower the error rate. GAO first reported WC offset problems in
1983 citing its findings as a material weakness. HHS/OIG repeated similar findings in
1991 and 1993. SSA’s internal evaluators (OPIR) followed up on the GAO study in
1985 confirming that WC problems existed. In 1991, OPIR concluded that WC offset
conditions worsened. In 1997, OPIR again reported on a variety of WC offset problems
without resolution. Most of these issues are closely related to, or identical to issues
contained in this report.

Therefore, SSA should not benchmark reportable material weaknesses only against
benefit outlays. Although SSA has not defined what this benchmark amount would be,
the materiality base for financial statement reporting ranges from about $4 to
$12 billion. This threshold seems to be an extremely high standard for management to
apply when reporting on material conditions that effect the efficiency and effectiveness
of program operations.




                                           27
APPENDICES
                                                                                          APPENDIX A


                  ATTR I B U TE S AP P R AI S AL

                              Total Cases with Computational Errors

    Total Population                                                             183,881

    Total Sample Size                                                                  1001

    Number of Cases with the Social Security
     Administration (SSA) Benefit Computation Errors                                    41

    Projection of Cases in Total Population
     with SSA Benefit Computation Errors                                           75,391


    CONFIDENCE LEVEL                     90 percent confident that the actual number of
                                         cases in the total population with SSA benefit
                                         computation errors is between 60,130 and
                                         91,405




ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
1
  We selected a random sample of 100 cases. Because of the difficulty in obtaining case files and WC
verification, we have based our projections on the errors identified from our review of 50 cases for which
we received folders. When we project, we are using the entire sample of 100 cases assuming that the
remaining 50 cases, which we did not review, are correct. If we reviewed the remaining 50 cases, we
would expect the projections of the errors to increase.




                                                   A-1
                                                                             APPENDIX B


            V AR I AB L E S AP P R AI S AL

             Total Dollar Error in the Master Beneficiary Records

Total Dollar Error in Sample of 100 Cases                $    286,459.99

Total Sample Size                                                      100

Average Total Dollar in Error                           $     2,864.5999

Total Population                                                  183,881

Value of Projected Computation Errors to
 the Total Population of Title II Benefits Paid          $ 526,745,494


CONFIDENCE LEVEL                  90 percent confident that the actual value of
                                  all dollars in error in the total population of title II
                                  benefits paid is between $332,179,583 and
                                  $721,311,406.




                                        B-1
                                                                                          APPENDIX C


    N O N S TATI S TI C AL AP P R AI S AL

                            Total Projected Dollars Overpaid

Total Dollars Overpaid in the Sample                                           $       209,450.54

Number of Cases in Sample                                                              100

Average Dollars Overpaid for Each Case in Sample                       $     2,094.5054

Number of Cases in Total Population                                                183,881

Total Projected Dollars Overpaid
      ($2,094.5054 x 183,881)                                          $    385,139,747

    ----------------------------------------------------------------------------------------------

                           Total Projected Dollars Underpaid

Total Dollars Underpaid in the Sample                                  $      77,009.45

Number of Cases in Sample                                                             100

Average Dollars Underpaid for Each Case in Sample                      $       770.0945

Number of Cases in Total Population                                             183,881

Total Projected Dollars Underpaid
 ($770.0945 x 183,881)                                                 $ 141,605,747




                                                 C-1
                                                                                                APPENDIX C

                                Total Projected Title II Benefits Paid

    Total Benefits Paid to Primary Number Holder and
     Auxiliaries in 50 Sample Cases                                         $       1,720,232.50

    Number of Cases in Sample                                                                    50

    Average Benefits Paid Per Sample Item                                   $       34,404.6500

    Number of Cases in Total Population                                                   183,881

    Total Projected Title II Benefits for Total Population
     ($34,404.6500 x 183,881)                                               $    6,326,361,4471

          ----------------------------------------------------------------------------------------------

    Percent of Dollars in Error, When Compared to What Should Have Been Paid

    Using the Social Security Administration’s Index Dollar Accuracy Formula:

    (Overpayments + Underpayments)
    (Projected Title II Benefits Paid - Overpayments + Underpayments)

    $ (385,139,747 + 141,605,747)                 =$                           526,745,494
    $ (6,326,361,447 - 385,139,747 + 141,605,747)  $                         6,082,827,447

    = .086595502 or 8.66 percent




ÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂÂ
1
  This is a nonstatistical estimate. Due to time considerations, we did not determine the benefits paid on
the 50 sample cases not reviewed.




                                                      %
                                                                            APPENDIX D


    M AJ O R R E P O R T C O N TR I B U TO R S

Office of the Inspector General

Gary A. Kramer, Director, Program Audits (Eastern Division)

James D. O’Hara, Deputy Director

Michele Roshetko, Auditor-In-Charge

Rick Edris, Auditor

Douglas Boyer, Auditor


For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-9135. Refer to Common Identification Number
A-04-96-61013.




                                           D-1
                       APPENDIX E


S S A C O M M E N TS
                                   APPENDIX F


S S A O R G AN I Z ATI O N AL C H AR T
